U.S. Department of Justice
Office of the Solicitor General

Washington, D.C. 20530

July 9, 2021
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re: Dawn Herndon v. Judy R. Upton, No. 20-1556
Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on May 5, 2021.
The government’s response is now due, after one extension, on July 23, 2021. We respectfully
request, under Rule 30.4 of the Rules of this Court, a further extension of time to and including
August 23, 2021, within which to file a response.
This extension is necessary because the attorneys with principal responsibility for
preparation of the government’s response have been heavily engaged with the press of previously
assigned matters with proximate due dates.
Counsel for petitioner does not oppose this further extension.
Sincerely,

Elizabeth B. Prelogar
Acting Solicitor General
cc:

See Attached Service List

20-1556
HERNDON, DAWN
JUDY R. UPTON, WARDEN

KENNETH A. CARUSO
MUKASEY FRENCHMAN LLP
TWO GRAND CENTRAL TOWER
140 EAST 45TH STREET
NEW YORK, NY 10017
212-466-6400
KEN.CARUSO@MFSLLP.COM
VIRGINIA CHAVEZ ROMANO
WHITE & CASE LLP
1221 AVENUE OF THE AMERICAS
NEW YORK, NY 10020
212-819-8200

